No. _ _ __

lfn tbe ~upreme QCourt of tbe mntteb ~tate~
GREG SKIPPER, WARDEN, PETITIONER

V.
CURTIS JEROME BYRD

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

CERTIFICATE OF COMPLIANCE

Attorney for Petitioner Greg Skipper, Warden, hereby certifies that the foregomg Petition complies with the type-volume limitation of Supreme Court Rule
33.l(g)(i), in that the word-processing system used to prepare the brief indicates that
the brief contains 6,118 words.
Respectfully submitted,
Dana Nessel
MichiganAttorney General
Fadwa A. Hammoud
Solicitor General
Counsel of Record
P.O. Box 30212
Lansing, Michigan 48909
HammoudFl@michigan.gov
(517) 335-7628

a7J(_.~
Ann M. Sherman
Deputy Solicitor General
Attorneys for Petitioner

